TN
COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-1082
RAYMOND GARDNER,
Petitioner,
v.
MATTHEW T. MGLEJ,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE
RESPONDENT IN OPPOSITION in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 4528 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of March, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
t NEE J. GOSS 9 7
My Comm. Exp. September 5, 2023

Notary Public

 

Onda Kh, hole

Affiant 40683
